Case: 20-2309

Document: 43

Page: 1

Filed: 07/08/2021 .

NOTE: This order is nonprecedential.

tHmtei) States; Court of ^Ippeate
for tfje JfeUeral Circuit
NAGUI MANKARUSE,
Plaintiff-Appellant
v.
RAYTHEON COMPANY, TRS LLC US, DAVID EARL
STEPHENS, JOHN RYAN, JAMES LEROY
COTTERMAN, JR., JAMES D. WEBER, MARK P.
HONTZ, KIMBERLY R. KERRY, COLIN J.
SCHOTTLAENDER, WILLIAM H. SWANSON,
THOMAS A. KENNEDY, MATTHEW BREWER, F.
KINSEY HAFNER, KEITH PEDEN, BRIAN
ARMSTRONG, RICHARD ROCKE,
Defendants-Appellees
2020-2309
Appeal from the United States District Court for the
Central District of California in No. 8:19-cv-01904-DOCADS, Judge David O. Carter.

ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC

Case: 20-2309

Document: 43

Page: 2

Filed: 07/08/2021

MANKARUSE v. RAYTHEON COMPANY

2

Before MOORE, Chief Judge, NEWMAN, LOURIE, LINN1,
Dyk, Prost, O’Malley, Reyna, Taranto, Chen, Hughes,
and STOLL, Circuit Judges.
Per Curiam.
ORDER
Nagui Mankaruse filed a combined petition for panel
rehearing and rehearing en banc. The petition was referred
to the panel that heard the appeal, and thereafter the peti­
tion for rehearing en banc was referred to the circuit judges
who are in regular active service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on July 15, 2021.

For the Court
July 8. 2021
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

1
Circuit Judge Linn participated only in the decision
on the petition for panel rehearing.

Case: 20-2309

Document: 40

Page: 1

Filed: 05/07/2021

NOTE: This disposition is nonprecedential.

fHntteb States: Court of Uppeate
for tfje Jfeberal Circuit
NAGUI MANKARUSE,
Plaintiff-Appellant
v.
RAYTHEON COMPANY, TRS LLC US, DAVID EARL
STEPHENS, JOHN RYAN, JAMES LEROY
COTTERMAN, JR., JAMES D. WEBER, MARK P.
HONTZ, KIMBERLY R. KERRY, COLIN J.
SCHOTTLAENDER, WILLIAM H. SWANSON,
THOMAS A. KENNEDY, MATTHEW BREWER, F.
KINSEY HAFNER, KEITH PEDEN, BRIAN
ARMSTRONG, RICHARD ROCKE,
Defendants-Appellees
2020-2309
Appeal from the United States District Court for the
Central District of California in No. 8:19-cv-01904-DOCADS, Judge David O. Carter.
Decided: May 7, 2021
NAGUI MANKARUSE, Huntington Beach, CA, pro se.
Andrew Valentine, DLA Piper LLP (US), East Palo

Case: 20-2309

Document: 40

2

Page: 2

Filed: 05/07/2021

MANKARUSE v. RAYTHEON COMPANY

Alto, CA, for defendants-appellees. Also represented by
Stanley Joseph Panikowski, III, San Diego, CA; Nancy
Nguyen Sims, Los Angeles, CA.
Before TARANTO, Linn, and CHEN, Circuit Judges.
Taranto, Circuit Judge.
Nagui Mankaruse, proceeding pro se, brought this ac­
tion in district court against Raytheon Company, ThalesRaytheon Systems (TRS) LLC, and a host of Raytheon em­
ployees in their personal capacity (collectively, Raytheon),
alleging patent infringement and trade-secret misappro­
priation. Having fought similar, and in large part the
same, claims by Mr. Mankaruse in California state courts
during the previous six years, Raytheon asked the district
court in this case for, and received, an order deeming Mr.
Mankaruse a vexatious litigant, requiring him to seek
court permission before filing further cases against it, and
also requiring him to post a $25,000 security bond before
proceeding with the present case. See Mankaruse v. Ray­
theon Co., No. 8:19-cv-01904-DOC, 2020 WL 2405258, at *1
Mr.
(C.D. Cal. Jan. 23, 2020) {Pre-Filing Order).
Mankaruse failed to post the required bond, and the dis­
trict court then dismissed this case. We affirm.
I
Mr. Mankaruse is one of two named inventors on U.S.
Patent No. 6,411,512 and Canadian Patent No. 2,389,458,
both of which are titled “High Performance Cold Plate,”
and both which he has claimed to own. On October 3, 2019,
Mr. Mankaruse filed the present case in the Central Dis­
trict of California. He accused Raytheon of infringing
claims of the ’512 and ’458 patents and of misappropriating
his trade secrets. See Complaint, Mankaruse v. Raytheon
Co., No. 8:19-cv-01904 (C.D. Cal. Oct. 3, 2019), ECF No. 1.

Case: 20-2309

Document: 40

MANKARUSE v. RAYTHEON COMPANY

Page: 3

Filed: 05/07/2021

3

This is not the first lawsuit between Mr. Mankaruse
and Raytheon. Mr. Mankaruse, an engineer, worked for
Raytheon from 2004, until he was laid off in April 2012, as
part of a reduction in Raytheon’s workforce. A few months
before the layoff, Mr. Mankaruse sued Raytheon, along
with several Raytheon employees, in California state court,
asserting employment discrimination based on his age and
nationality, and Raytheon removed the case to federal
court. See Notice of Removal of Action Pursuant to 28
U.S.C. § 1441(a), Mankaruse v. Raytheon Co., No. 8:12-cvMr.
00261 (C.D. Cal. Feb. 16, 2012), ECF No. 1.
Mankaruse moved to dismiss his claims without prejudice
when the case was removed. Raytheon Appx. 152. The
federal court granted that motion and dismissed Mr.
Mankaruse’s claims on August 8, 2012. Raytheon Appx.
155.
From 2013 through 2017, Mr. Mankaruse filed six ad­
ditional unsuccessful state-court actions against Raytheon,
alleging various combinations of trade-secret misappropri­
ation and discrimination, as well as contract breaches and
torts. See Mankaruse v. Raytheon Co., Case No. 30-201300625080 (Orange Cnty. Super. Ct. filed Jan. 17, 2013);
American Innovation Corp. and Mankaruse v. Raytheon
Co., Case No. 30-2014-00732670 (Orange Cnty. Super. Ct.
filed July 7, 2014); Mankaruse v. Raytheon Co., Case No.
30-2016-00841632 (Orange Cnty. Super. Ct. filed Mar. 18,
2016); Mankaruse v. Raytheon Co., Case No. 30-201600860092 (Orange Cnty. Super. Ct. filed June 27, 2016);
Mankaruse v. Raytheon Co., Case No. 30-2016-00878349
(Orange Cnty. Super. Ct. filed Sept. 30, 2016); Mankaruse
v. Raytheon Co., Case No. 30-2017-00934796 (Orange Cnty.
Super. Ct. filed July 31, 2017). One of those cases went to
trial, ending in a jury verdict in favor of Raytheon in De­
cember 2014, which was affirmed on appeal. See Raytheon
Appx. 157-72 (Case No. 30-2013-00625080).
In another one of those cases, the California Superior
Court, on July 12, 2018, declared Mr. Mankaruse a

Case: 20-2309

4

Document: 40

Page: 4

Filed: 05/07/2021

MANKARUSE v. RAYTHEON COMPANY

vexatious litigant under California Code of Civil Procedure
§ 391(b)(1) and required that he obtain pre-filing approval
from the court before initiating any future litigation and
that he post a security bond of $10,000 before proceeding
in the case. Raytheon Appx. 137-40 (order in Case No. 302016-00878349). After Mr. Mankaruse posted the required
bond and the case proceeded, the court ultimately entered
summary judgment against him on October 31, 2019 and
awarded costs to Raytheon. Raytheon Appx. 192-204. The
court thereafter rejected Mr. Mankaruse’s motion to re­
lease the bond after final disposition of the case. Raytheon
Appx. 149. Mr. Mankaruse was also placed on a list of vex­
atious litigants maintained by the California Judicial
Council.1
In the present case, on December 12, 2019, citing Mr.
Mankaruse’s litigation history, Raytheon filed a motion
asking the court to declare Mr. Mankaruse a vexatious lit­
igant, impose a pre-filing-approval requirement, and order
him to post a security bond of $50,000 before proceeding
with this case. Raytheon Appx. 109-10,271-93. Raytheon
also asked that the court consider Mr. Mankaruse’s history
of filing cases against Intel Corporation and others (collec­
tively, Intel)—including a co-pending patent-infringement
action asserting the same patents as those at issue here,
an action we address in Mankaruse v. Intel Corp., No. 20202297, slip op. at 2-4 (Fed. Cir. May 7, 2021), issued today.
See Raytheon Appx. 282-86.
After a hearing on the motion, the district court de­
clared Mr. Mankaruse a vexatious litigant, entered the

1 We take judicial notice, under Federal Rule of Evi­
dence 201, of the fact that Mr. Mankaruse remains on the
California List of Vexatious Litigants at the time of this
opinion. See Cal. Courts, Vexatious Litigant List 48,
https://www.courts.ca.gov/documents/vexlit.pdf (last up­
dated April 1, 2021).

Case: 20-2309

Document: 40

Page: 5

Filed: 05/07/2021

MANKARUSE v. RAYTHEON COMPANY

5

requested pre-filing-approval order, and imposed a bond
requirement on January 23, 2020. See Pre-Filing Order,
2020 WL 2405258, at *4. Proceeding through the factors
set forth by the Ninth Circuit in De Long v. Hennessey, 912
F.2d 1144 (9th Cir. 1990), the court first determined that a
pre-filing-approval order was appropriate because Mr.
Mankaruse’s previous lawsuits evidenced “an extensive
history of frivolous and harassing litigation tactics” and
compelled “an adverse inference regarding [his] motives in
bringing the[] actions” Pre-Filing Order, 2020 WL
2405258, at *2-3. The court also found a pre-filing-ap­
proval order to be needed, deeming less stringent measures
inadequate in light of his litigation history. Id. at *3.
Pursuant to the Ninth Circuit’s requirement of narrow
tailoring, the court ordered that Mr. Mankaruse
seek prefiling approval . . . prior to filing cases in
the Central District of California pro se against
Raytheon, TRS, Intel, or any of their employees, of­
ficers or agents regarding Plaintiffs prior employ­
ment with these entities or regarding any alleged
stolen trade secrets or patent infringement by
these actors.
Id. (citing C.D. Cal. Local Rule 83-8.2). The court also
granted Raytheon’s request for a security bond in the pre­
sent case, requiring that Mr. Mankaruse produce a bond of
$25,000 “on or before February 29, 2020 or the action will
be dismissed.” Id. When Mr. Mankaruse failed to post a
bond by the specified date, the district court dismissed his
claims and entered a final judgment on June 9, 2020. Ray­
theon Appx. 7-8.
Mr. Mankaruse appealed the district court’s January
23, 2020 order to the Ninth Circuit on February 19, 2020,
and appealed again on June 15, 2020, after the judgment
was made final. The appeal was transferred to our court
on September 22, 2020, because it falls within our exclusive
jurisdiction under 28 U.S.C. § 1295(a)(1).

Case: 20-2309

6

Document: 40

Page: 6

Filed: 05/07/2021

MANKARUSE v. RAYTHEON COMPANY

II
Mr. Mankaruse challenges the district court’s order as
violative of his constitutional rights, including under the
First and Fifth Amendments. See Mankaruse Opening Br.
21-22. We also understand Mr. Mankaruse to be challeng­
ing the court’s security-bond requirement as violating the
Eighth Amendment’s prohibition on “excessive bail, exces­
sive fines, or cruel and unusual punishments.” See id. at
22- 23. Mr. Mankaruse separately argues that the district
court erred by finding him to be a vexatious litigant when,
he asserts, the California state court terminated his desig­
nation as a vexatious litigant. Id. at 19.
The Ninth Circuit’s test for determining whether a pre­
filing-approval order is appropriate takes account of the
constitutional guarantees invoked by Mr. Mankaruse, and
we see no separate ground for finding a violation of those
guarantees if the Ninth Circuit test is met. See De Long,
912 F.2d at 1147 (“[W]e also recognize that such pre-filing
orders should rarely be filed.”); see also Ringgold-Lockhart
v. County of Los Angeles, 761 F.3d 1057, 1061-62 (9th Cir.
2014) (applying De Long after discussing First and Fifth
Amendment concerns); Molski v. Evergreen Dynasty Corp.,
500 F.3d 1047, 1056-57 (9th Cir. 2007) (per curiam)
(same).
Applying that test, we conclude that Mr.
Mankaruse has not shown reversible error in the district
court’s ruling in this case.
A
Applying the law of the regional circuit, we review a
district court’s entry of a pre-filing-approval order and dec­
laration of a vexatious litigant for an abuse of discretion.
See Ringgold-Lockhart, 761 F.3d at 1062; Baden Sports,
Inc. v. Molten USA, Inc., 556 F.3d 1300, 1304 (Fed. Cir.
2009). “A district court abuses its discretion when it bases
its decision on an incorrect view of the law or a clearly er­
roneous finding of fact.” Molski, 500 F.3d at 1056-57.

Case: 20-2309

Document: 40

Page: 7

Filed: 05/07/2021

MANKARUSE v. RAYTHEON COMPANY

7

An order restricting future court filings should rarely
be entered and must comply with “certain procedural and
substantive requirements”: (1) a plaintiff must be given an
opportunity to oppose entry of the order; (2) the district
court must indicate what court filings support issuance of
the order; (3) the district court must find that the filings
were frivolous or harassing; and (4) the order must be nar­
rowly tailored. Ringgold-Lockhart, 761 F.3d at 1062 (citing
De Long, 912 F.2d at 1147). To analyze the last two aspects
of the test, the Ninth Circuit borrows from the Second Cir­
cuit’s “helpful framework” of five substantive factors to de­
termine “whether a party is a vexatious litigant and
whether a pre-filing order will stop the vexatious litigation
or if other sanctions are adequate.” Molski, 500 F.3d at
1058; see also Ringgold-Lockhart, 761 F.3d at 1062. Those
factors include:
(1) the litigant’s history of litigation and in partic­
ular whether it entailed vexatious, harassing or du­
plicative lawsuits; (2) the litigant’s motive in
pursuing the litigation, e.g., does the litigant have
an objective good faith expectation of prevailing?;
(3) whether the litigant is represented by counsel;
(4) whether the litigant has caused needless ex­
pense to other parties or has posed an unnecessary
burden on the courts and their personnel; and
(5) whether other sanctions would be adequate to
protect the courts and other parties.
Molski, 500 F.3d at 1058 (quoting Safir v. United States
Lines, Inc., 792 F.2d 19, 24 (2d Cir. 1986)).
The district court in the present matter gave Mr.
Mankaruse an adequate opportunity to oppose entry of the
order before it was entered. The parties fully briefed the
issue, Raytheon Appx. 271-93, 294-446, 447-56, and ap­
peared before the court, which heard from Mr. Mankaruse
and counsel for Raytheon, see id. at 9-41. The district court
had “an adequate record” of the earlier litigation, De Long,

Case: 20-2309

8

Document: 40

Page: 8

Filed: 05/07/2021

MANKARUSE v. RAYTHEON COMPANY

912 F.2d at 1147, reviewing a list of cases that Mr.
Mankaruse had filed against Raytheon and Intel over the
preceding seven years, Pre-Filing Order, 2020 WL
2405258, at *2. See also Raytheon Appx. 125-270 (Ray­
theon’s Request for Judicial Notice listing cases and sup­
porting documentation).
The district court also reasonably made “substantive
findings as to the frivolous or harassing nature” of Mr.
Mankaruse’s claims. De Long, 912 F.2d at 1148 (internal
quotation marks omitted). For example, the district court
explained, Mr. Mankaruse had a history of dismissing
claims after Raytheon had expended significant effort in
defending them, only to refile the same claims in a new
suit. See Pre-Filing Order, 2020 WL 2405258, at *3; see
also, e.g., Raytheon Appx. 119, % 5 (sworn attorney decla­
ration that Mr. Mankaruse dismissed claims and refiled
them in new suit the following day); id. at 181 (dismissing
appeal of dismissal in Case No. 30-2014-00732670 after
briefing but before argument); id. at 185. The district court
noted that in one case, in which Raytheon had filed a de­
murrer, Mr. Mankaruse dismissed his lawsuit on the day
of, but just before, the hearing, at which Raytheon counsel,
lacking notice of the dismissal, showed up to argue. See
Raytheon Appx. 185; see also id. at 127 (attorney declara­
tion explaining events). Mr. Mankaruse does not deny this
version of the events, and we see no reason that the inci­
dent should “not qualif[y]” as part of the analysis.
Mankaruse Opening Br. 18 (annotation regarding Case No.
30-2016-00841632). Mr. Mankaruse even continued this
pattern in the present case, refusing to amend his com­
plaint to delete claims for relief against Intel (which is not
named as a party) after a meeting with Raytheon’s counsel,
only to amend his complaint after Raytheon filed a motion
to dismiss those claims. See Raytheon Appx. 59; id. at 119,
HU 2-3 (attorney declaration regarding meet and confer);
id. at 123 (attorney letter to Mr. Mankaruse requesting
meet and confer).

Case: 20-2309

Document: 40

MANKARUSE v. RAYTHEON COMPANY

Page: 9

Filed: 05/07/2021

9

The district court relied on the “extensive history of
frivolous and harassing litigation tactics” confirming that
this was Mr. Mankaruse’s modus operandi, and not simply
on the number of suits or motions filed, as justifying the
designation of Mr. Mankaruse as a vexatious litigant. PreFiling Order, 2020 WL 2405258, at *3; see also De Long,
912 F.2d at 1148 (“Flagrant abuse of the judicial process
cannot be tolerated because it enables one person to
preempt the use of judicial time that properly could be used
to consider the meritorious claims of other litigants.”);
Ringgold-Lockhart, 761 F.3d at 1066 (“[A] pattern of frivo­
lous or abusive litigation in different jurisdictions unde­
terred by adverse judgments may inform a court’s decision
that an injunction is necessary.”); cf. id. at 1065 (comment­
ing that imposing a pre-filing order based on “litigant’s mo­
tion practice in two cases” “would at least be extremely
unusual,” but not deciding the issue). In addition to the
suits against Raytheon, the district court was also aware of
the similar claims Mr. Mankaruse asserted against Intel,
and similar behavior regarding his motions practice. See
Order, Mankaruse v. Intel Corp., No. 8:19-cv-01902 (C.D.
Cal. Jan. 27, 2020), ECF No. 34; see also Mankaruse v. Intel
Corp., No. 2020-2297, slip op. at 2-4. The reasonableness
of the district court’s decision is further supported by the
fact that California courts have also declared Mr.
Mankaruse a vexatious litigant under state law. See Ray­
theon Appx. 137-140. Given the character and frequency
of Mr. Mankaruse’s tactics, we cannot say the district court
erred in its conclusion regarding the vexatiousness of Mr.
Mankaruse as a litigant.
The district court also appropriately considered
whether alternative sanctions would suffice to deter the ac­
tions Raytheon complained of, noting that Mr. Mankaruse
previously forfeited a $10,000 bond by pressing an unsuc­
cessful state-court claim against Raytheon. Cf. RinggoldLockhart, 761 F.3d at 1066 (explaining that district court
“failed to consider whether other remedies were adequate

Case: 20-2309

10

Document: 40

Page: 10

Filed: 05/07/2021

MANKARUSE v. RAYTHEON COMPANY

to curb what it viewed” as frivolous motions practice). The
district court’s “inference that other sanctions would be in­
sufficient” is reasonable and not an abuse of its discretion.
Pre-Filing Order, 2020 WL 2405258, at *3.
Mr. Mankaruse argues that the district court clearly
erred by failing to recognize that a California state court
“relieved” him of his vexatious litigant label. Mankaruse
Opening Br. 19. This argument misunderstands the Cali­
fornia court’s order that he cites. In the order, the state
court denied Raytheon’s motion to declare Mr. Mankaruse
a vexatious litigant under California law for a second time,
but never addressed Mr. Mankaruse’s status presented by
his earlier case. See Raytheon Appx. 99-104. The court’s
order expressly states that it denied Raytheon’s motion “for
purposes of this action,” referring only to that case, id. at
103, and to date Mr. Mankaruse is still listed on the state’s
list of vexatious litigants, see supra p.4 n.l.
Lastly, the court’s Pre-Filing Order meets the require­
ment of being narrowly tailored. The court’s order does not
prevent Mr. Mankaruse from pursuing “all claims” against
Raytheon or the other parties; rather, it is limited to claims
“regarding [his] prior employment” or “regarding any al­
leged stolen trade secrets or patent infringement,” Pre-Fil­
ing Order, 2020 WL 2405258, at *3, which are the types of
claims that Mr. Mankaruse had been filing vexatiously, see
Molski, 500 F.3d at 1061; see also Baker v. Dykema Gossett,
LLP, 776 F. App’x 485, 487 (9th Cir. 2019) (“[T]he order
was narrowly tailored because it was limited to one set of
defendants and one court.”). In addition, the requirement
of pre-filing approval is limited to cases that Mr.
Mankaruse files pro se; it does not apply to cases filed by
counsel. And we understand'that approval will actually be
forthcoming if the claims filed are “not duplicative and not
frivolous.” Ringgold-Lockhart, 761 F.3d at 1066 (internal
quotation marks omitted).

Case: 20-2309

Document: 40

Page: 11

MANKARUSE v. RAYTHEON COMPANY

Filed: 05/07/2021

ll

We conclude that the district court did not abuse its
discretion by adopting the Pre-Filing Order in this matter.
B
We review a district court’s requirement of a security
bond from a declared vexatious litigant for abuse of discre­
tion. See Monsterrat Overseas Holdings, S.A. v. Larsen,
709 F.2d 22, 24 (9th Cir. 1983). “Federal courts have in­
herent authority to require plaintiffs to post security for
costs.” In re Merrill Lynch Relocation Mgmt., Inc., 812 F.2d
1116, 1121 (9th Cir. 1987). Under the Central District of
California’s Local Rule 83-8.2, the district court “may, at
any time, order a party to give security in such amount as
the Court determines to be appropriate to secure the pay­
ment of any costs, sanctions or other amounts which may
be awarded against a vexatious litigant.” C.D. Cal. R. 838.2. We cannot say that the district court abused its dis­
cretion under this rule by requiring Mr. Mankaruse to post
a bond in this case.
As explained above, the court properly declared Mr.
Mankaruse a vexatious litigant. And the bond amount of
$25,000 was not excessive. The purpose of the bond is to
provide a defendant security that, if it were to prevail in
defending against a suit, would enable it to recoup its costs
from a plaintiff, and the parties here do not meaningfully
dispute that, at the time the bond was required, predicted
costs of further litigation would have exceeded $25,000.
See Fed. R. Civ. P. 54(d); see also Mankaruse Reply Br. 21
(“Both Intel and Raytheon spending millions of Dollars for
years in frivolous litigations . . . .”); Raytheon Appx. 120,
f 10 (attorney declaration stating costs defending lawsuit
exceed $50,000); id. at 116 (letter from Intel in similar
case). Moreover, the district court set the amount at
$25,000, representing half of what Raytheon requested in
its motion and a reasonable amount of costs Raytheon
might be entitled to if successful in defending against the
suit. See Raytheon Appx. 288; see also Walczak v. EPL

Case: 20-2309

12

Document: 40

Page: 12

Filed: 05/07/2021

MANKARUSE v. RAYTHEON COMPANY

Prolong, Inc., 198 F.3d 725, 734 (9th Cir. 1999) (affirming
imposition of $100,000 bond when non-movant claimed
damages could exceed $2 million); Figure Eight Holdings,
LLC v. Dr. Jays, Inc., 534 F. App’x 670, 670-71 (9th Cir.
2013) (affirming $50,000 bond after considering, among
factors, the “risk that [plaintiff] would not pay the costs” if
it lost and “an assessment of the likelihood that [plaintiff]
will lose”).
Mr. Mankaruse argues that the district court abused
its discretion by requiring the $25,000 security bond be­
cause he is unable to secure that much money. Mankaruse
Opening Br. 22-23. This argument fails to appreciate the
proper legal standard by which we analyze the district
court’s decision. Federal district courts “have inherent
power to require plaintiffs to post security for costs” and
typically, although they are not required to, “follow the fo­
rum state’s practice.” Simulnet E. Assocs. v. Ramada Hotel
Operating Co., 37 F.3d 573, 574 (9th Cir.1994); see also
Kourtis v. Cameron, 358 F. App’x 863, 866 (9th Cir. 2009).
Although under California law, a court “may, in its discre­
tion, waive a provision for a bond” based on a party’s ina­
bility to pay, that standard does not make inability to pay
a bar to requiring a bond, but leaves discretion with the
court. Cal. Code Civ. Proc. § 995.240. In the circumstances
of this case, we do not think that the district court abused
its discretion in requiring Mr. Mankaruse to provide a se­
curity bond of $25,000. It follows that the district court
properly dismissed Mr. Mankaruse’s claims when he failed
to pay the required bond.
Ill
For the foregoing reasons, we affirm the district court’s
dismissal of Mr. Mankaruse’s suit against Raytheon.
The parties shall bear their own costs.
AFFIRMED

Case 8:19-cv~01904-DOC-ADS Document 68 Filed 01/23/20 Page lot 6 PagelD#:1380

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

JS-6
CIVIL MINUTES - GENERAL
Case No. SA CV 19-1904-DOC (ADSx)

Date: January 23, 2020

Title: NAGUI MANKARUSE ET AL V. RAYTHEON COMPANY ET AL
PRESENT:
THE HONORABLE DAVID O. CARTER. JUDGE
Deborah Lewman
Courtroom Clerk

Not Present
Court Reporter

ATTORNEYS PRESENT FOR
PLAINTIFF:
None Present

ATTORNEYS PRESENT FOR
DEFENDANT:

PROCEEDINGS (IN CHAMBERS):

None Present

ORDER GRANTING MOTION TO
DECLARE PLAINTIFF A
VEXATIOUS LITIGANT [56]

Before the Court is Defendants Raytheon Company and TRS LLC US’
(collectively, “Raytheon” or “Defendants”) Motion to Declare Plaintiff a Vexatious
Litigant (“Motion”) (Dkt. 56). Having reviewed the papers and considered the parties’
oral arguments on January 21,2020, the Court GRANTS Defendants’ Motion.
I.

Background
A.

Facts

The following facts are taken from the Motion. Plaintiff Nagui Mankaruse
(“Plaintiff’) is a former employee of Raytheon. Mot. At 1. He has been deemed a

Case 8:19-cv-01904-DOC-ADS Document 68 Filed 01/23/20 Page 2 of 6 PagelD#:1381
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. SA CV 19-1904-DOC (ADSx)

Date: January 23, 2020
Page 2

vexatious litigant by the Superior Court of California.1,2 Plaintiff, as a pro se litigant, has
maintained seven cases against Raytheon and three cases against Intel Corporation, all of
which were determined adversely to Plaintiff. Mot. At 1. Plaintiff filed the instant action
in this Court on October 3, 2019. Dkt. 1. This is the same day as the hearing in which the
Superior Court of California granted Raytheon’s summary judgment motion on Plaintiffs
last-pending state court case. Mot. At 2. On the same day, Plaintiff filed a related suit
against Intel Corporation, also pending before this Court. Id.
In Mankaruse v. Raytheon Company, etal., Case No. 30-2016-00878349-CU-IPCJC, Orange County Superior Court, Raytheon filed a motion to have Plaintiff deemed a
vexatious litigant pursuant to California law, to require that Plaintiff post a security bond
of $10,000, and for a prefiling order prohibiting the filing of new litigation. On July 12,
2018, the Honorable James Crandall granted the motion and ordered Plaintiff to post a
security bond in the amount of $10,000. RJN11, Ex. 1. Plaintiff, therefore, was placed
on the vexatious litigant list maintained by the California Judicial Council. RJN H 2, Ex.
2. Raytheon was granted summary judgment in that case, and Plaintiff forfeited the bond.
RJN 3, 10, 11.
B.

Procedural History

On October 3, 2019, Plaintiff filed the action in this Court (Dkt. 1). On December
12, 2019, Defendants filed the Motion (Dkt. 56). On December 23, 2019, Plaintiff
opposed the Motion (“Opp’n”) (Dkt. 59). On December 30, 2019, Defendants replied
(“Reply”) (Dkt. 62). On January 21, 2020, the Court held oral argument on the Motion to
allow all parties to have their day in Court.
In its Motion, Raytheon moves this Court to (1) declare Plaintiff a vexatious
litigant; (2) require Plaintiff to furnish a security bond if this case is to move forward; (3)
stay discovery until Plaintiff has posted such bond; and (4) issue a pre-filing order
prohibiting Plaintiff from filing any new law suit in federal court without obtaining
permission from this Court.

1 The Court takes judicial notice of the documents Raytheon submitted in their Request for
Judicial Notice (“RJN”). Dkt. 56. The documents are records of prior court proceedings,
documents maintained by state actors pursuant to state law, or official state records.
2 Plaintiff argues that he is no longer deemed a vexatious litigant. See Opp’n at 6. However, that
is directly contradicted by the orders declaring Plaintiff a vexatious litigant and denying his
request to be removed from the vexatious litigant list. See generally RJN.

Case 8:19-cv-01904-DOC-ADS Document 68 Filed 01/23/20 Page 3 of 6 PagelD#:1382
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. SA CV 19-1904-DOC (ADSx)
II.

Date: January 23, 2020
Page 3

Legal Standard
A.

Vexatious Litigant

“Federal courts can ‘regulate the activities of abusive litigants by imposing
carefully tailored restrictions under .. . appropriate circumstances.’” Ringgold-Lockhart
v. Cty. OfLos Angeles, 761 F.3d 1057, 1061 (9th Cir. 2014) (quoting De Longv, Hennesy,
912 F.2d 1144, 1447 (9th Cir. 1990)). “Flagrant abuse of the judicial process cannot be
tolerated because it enables one person to preempt the use of judicial time that properly
could be used to consider the meritorious claims of other litigants.” DeLong v.
Hennessey, 912 F.2d 1144, 1148 (9th Cir. 1990); see C.D. Cal. R. 83-8.1 (“It is the policy
of the Court to discourage vexatious litigation.”). Thus, “[pjursuant to the All Writs Act,
28 U.S.C. § 1651(a), ‘enjoining litigants with abusive and lengthy [litigation] histories is
one such ... restriction’ that courts may impose.” Ringgold-Lockhart, 761 F.3d at 1061
(quoting De Long, 912 F.2d at 1147). Federal district courts also “have inherent power to
require plaintiffs to post security for costs.” Simulnet E. Assocs. v. Ramada Hotel
Operating Co., 37 F.3d 573, 574 (9th Cir. 1994).
However, “[o]ut of regard for the constitutional underpinnings of the right to court
access, ‘pre-filing orders should rarely be filed, and only if courts comply with certain
procedural and substantive requirements.’” Ringgold-Lockhart, 761 F.3d at 1062 (quoting
De Long, 912 F.2d at 1147). In DeLong v. Hennessey, 912 F.2d 1144 (9th Cir. 1990), the
Ninth Circuit “outlined four factors for district courts to examine before entering pre­
filing orders.” Molski v. Evergreen Dynasty Corp., 500 F.3d 1047, 1057 (9th Cir. 2007).
First, the litigant must be given notice and a chance to be heard
before the order is entered. Second, the district court must compile
“an adequate record for review.” Third, the district court must make
substantive findings about the frivolous or harassing nature of the
plaintiffs litigation. Finally, the vexatious litigant order “must be
narrowly tailored to closely fit the specific vice encountered.”
Id. (quoting De Long, 912 F.2d at 1147-48). “The first and second of these
requirements are procedural, while the Tatter two factors ... are substantive
considerations . . . [that] help the district court define who is, in fact, a “vexatious
litigant” and construct a remedy that will stop the litigant’s abusive behavior while not
unduly infringing the litigant’s right to access the courts.’” Ringgold-Lockhart, 761 F.3d
at 1062 (quoting Molski, 500 F.3d at 1058). The Ninth Circuit has outlined the following
factors to consider when determining who constitutes a “vexatious litigant”:

Case 8:19-cv-01904-DOC-ADS Document 68 Filed 01/23/20 Page 4 of 6 PagelD#:1383
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. SA CV 19-1904-DOC (ADSx)

Date: January 23, 2020
Page 4

(1) the litigant’s history of litigation and in particular whether it
entailed vexatious, harassing or duplicative lawsuits; (2) the
litigant’s motive in pursuing the litigation, e.g., does the litigant have
an objective good faith expectation of prevailing?; (3) whether the
litigant is represented by counsel;(4) whether the litigant has caused
needless expense to other parties or has posed an unnecessary
burden on the courts and their personnel; (5) whether other sanctions
would be adequate to protect the courts and other parties.
Id. (quoting Molski, 500 F.3d at 1058).
III.

Discussion
A.

Notice and Opportunity to be Heard

The first De Long factor requires this Court consider whether the Plaintiff has had
notice and opportunity to be heard. De Long, 912 F.2d at 1147. Raytheon filed the
Motion on December 21, 2019 and properly served the Plaintiff. Dkt. 56. Plaintiff
opposed the motion on December 23, 2019. Dkt. 59. Finally, the Court held a hearing on
the Motion on January 21, 2020, and Plaintiff was in attendance. Dkt. 67. Thus, Plaintiff
had an opportunity to be heard.
B.

Record for Review

The second De Long factor requires “a listing of all the cases and motions that led
the district court to conclude that a vexatious litigant order was needed.” De Long, 912
F.2d at 1147. This listing should show “that the litigant’s activities were numerous or
abusive.” Id. Plaintiff has filed numerous cases against Raytheon and Intel (defendant in
the related action filed on the same day as the instant action). A listing of these cases is
provided by Raytheon in its Motion. See Mot. at 8-10. The list includes six pro se actions
determined adversely to Plaintiff filed against Raytheon or Intel in the past seven years.3
An additional four actions were voluntarily dismissed by the Plaintiff. Id. at 9-10. The
Court finds that the actions voluntarily dismissed by the Plaintiff were “abusive” given
the timing of the dismissals, including some dismissals on the eve of a hearing on a

3 The Court notes that the action determined adversely to the Plaintiff on October 3, 2019 has
since become a final decision, as counsel for the Defendants indicated to the Court that the time
to appeal that action has elapsed.

Case 8:19-cv-01904-DOC-ADS Document 68 Filed 01/23/20 Page 5 of 6 PagelD#:1384
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. SA CV 19-1904-DOC (ADSx)

Date: January 23, 2020
Page 5

dispositive motion. Id. On this record, the Court finds that these filing are both numerous
and abusive. See De Long, 912 F.2d at 1147.
C.

Substantive Findings

“[BJefore a district court issues a pre-filing injunction against a pro se litigant, it is
incumbent on the court to make substantive findings as to the frivolous or harassing
nature of the litigant's actions.” De Long, 912 F.2d at 1148 (internal quotations omitted).
In evaluating this factor this Court also considers five additional issues: (1) the litigant’s
history of litigation and whether it entailed vexatious, harassing, or duplicative suits; (2)
the litigant’s motive in pursuing the litigation; (3) whether the litigant is represented by
counsel; (4) whether the litigant has caused needless expense to other parties or posed an
unnecessary burden on the courts; and (5) whether other sanctions would adequately
protect the courts and other parties. Molski, 500 F.3d at 1058 (citing Safir v. United States
Lines, Inc. 192 F.2d 19, 24 (2d Cir. 1986)).
Raytheon has supplied the Court with an overview of the harassing and abusive
nature of Plaintiff s litigation tactics. For example, in American Innovation Corp. and
Mankaruse v. Raytheon Company, et al., Case No. 30-2014-00732670-CU-BC-CJC,
Plaintiff dismissed the action shortly after Raytheon filed a dispositive motion. Mot. at
11. Then, the next day, Plaintiff refiled the action resulting in “two-plus” additional years
of litigation. Id. As another example, in Mankaruse v. Raytheon Company, et al., Case
No. 30-2016-00841632-CU-IP-CJC, Plaintiff dismissed the suit the day before a hearing
without informing the Defendants, resulting in Raytheon preparing for a fully briefed
hearing only to find out the case was dismissed at the hearing itself. Id. Plaintiff therefore
has an extensive history of frivolous and harassing litigation tactics. These tactics force
Raytheon and Intel to spend significant resources in order to defend themselves. Indeed,
Raytheon has provided evidence that it has, at times, fully briefed issues that were then
dismissed by Plaintiff with little or no explanation. This compels the Court to make an
adverse inference regarding Plaintiffs motive in bringing these actions.
Finally, the Court considers whether sanctions other than a prefiling order and
security bond would adequately protect the Court and the parties. See Molski, 500 F.3d at
1058. The Court finds that Plaintiffs prior actions, including proceeding with this action
after being declared a vexatious litigant in state court and previously losing a security
bond in the amount of $10,000, compels the inference that other sanctions would be
insufficient. The Plaintiff has not been deterred by similar findings in California state
court, and therefore is not likely to be deterred absent a strong sanction in this instance.

Case 8:19-cv-01904-DOC-ADS Document 68 Filed 01/23/20 Page 6 of 6 PagelD#:1385
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. SA CV 19-1904-DOC (ADSx)
D.

Date: January 23, 2020
Page 6

Narrowly Tailored Order

While prefiling orders that prevent a litigant from filing any suit in a particular
court are overbroad, see De Long, 912 F.2d at 1148, a prefiling order that covers a
specific plaintiffs future actions under a particular statute within a particular district can
be appropriate. See Molski, 500 F.3d at 1061 (“The order . .. appropriately cover[ed]
only the type of claims [plaintiff had been filing.]”). Further, the plaintiff in Molski was
not entirely prevented from filing those claims. Instead, the plaintiff simply needed to get
approval before being allowed to move forward. Id.
Given Plaintiffs continued filings against Raytheon and Intel, the Court
DECLARES Plaintiff a vexatious litigant and finds that a prefiling order is appropriate
moving forward. Plaintiff is ORDERED to seek prefiling approval in this Court prior to
filing cases in the Central District of California pro se against Raytheon, TRS, Intel, or
any of their employees, officers, or agents regarding Plaintiffs prior employment with
these entities or regarding any alleged stolen trade secrets or patent infringement by these
actors. See C.D. Cal. R. 83-8.2. This order is narrowly tailored to the “group of
defendants” Plaintiff has targeted and to the £<type[s] of claims [Plaintiff] ha[s] been filing
vexatiously.” Molski, 500 F.3d at 1061. Further, the order will not deny Plaintiff access to
the courts generally. Instead, it subjects Plaintiff to an initial screening regarding a subset
of potential future litigation against particular parties that Plaintiff has unfairly targeted
pro se. The Court also GRANTS Raytheon’s request for a security bond in the amount of
$25,000. Id. Plaintiff must pay the security bond on or before February 29, 2020 or the
action will be dismissed. The Court STAYS the matter until the payment of the security
bond.
IV.

Disposition

Accordingly, the Court GRANTS Defendants’ Motion. The Court DECLARES
Plaintiff a vexatious litigant, ISSUES a prefiling order as described above, and ORDERS
a security bond in the amount of $25,000. The Court STAYS the action pending payment
of the security bond.
The Clerk shall serve this minute order on the parties.
Initials of Deputy Clerk _kd
MINUTES FORM 11
CIVIL-GEN

Additional material
from this filing is
available in the
Clerk's Office.

